              OFFICE OF
       THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

       BENEFIT PAYMENTS MANAGED BY
  REPRESNTATIVE PAYEES OF CHILDREN IN THE
    FLORIDA STATE FOSTER CARE PROGRAM


          March 2012   A-13-11-11173




EVALUATION REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      March 19, 2012                                                                   Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Benefit Payments Managed by Representative Payees of Children in the Florida State
           Foster Care Program (A-13-11-11173)


           OBJECTIVE
           Our objective was to determine whether children in the Florida State foster care
           program had appropriate representative payees.

           BACKGROUND
           Some individuals are not able to manage or direct the management of their finances
           because of their youth or mental and/or physical impairment. For such beneficiaries,
           Congress provided that payment could be made through a representative payee who
           receives and manages the payments on the beneficiary’s behalf. 1 A representative
           payee may be an individual or an organization. The Social Security Administration
           (SSA) selects representative payees for Old-Age, Survivors and Disability Insurance
           (OASDI) 2 and Supplemental Security Income (SSI) 3 beneficiaries4 when representative
           payments would serve the individual’s interests.




           1
               The Social Security Act §§ 205(j) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j) and 1383(a)(2)(A)(ii).
           2
            The OASDI program provides benefits to qualified retirement eligible and disabled workers and their
           dependents as well as to survivors of insured workers (Social Security Act§ 202 et seq., 42 U.S.C §
           402 et seq.).
           3
            The SSI program provides payments to individuals who have limited income and resources; and who
           are age 65 or older, blind, or disabled (Social Security Act § 1601 et seq., 42 U.S.C § 1381 et seq.).
           4
             We use the term “beneficiaries” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
Page 2 – Michael W. Grochowski


According to SSA, cases involving foster care are among the most sensitive. It is
essential that SSA protect the rights of children who may not be able to rely on their
parents to do so. Therefore, it is important that SSA follow its policy, including a
complete investigation of the individual or organization applying to be a representative
payee and using the payee preference list appropriately to ensure children in foster care
have the appropriate representative payee. 5 According to SSA policy, “Foster care
agencies have traditionally been among SSA’s most dependable payees; however, their
appointment as rep [representative] payee is not automatic . . . . When a child is
removed from parental custody and the court places the child in custody of a foster care
agency, the agency has legal custody of the child . . . .” 6 Sometimes the foster care
agency is also the child’s legal guardian. SSA states that a child’s court-appointed legal
guardian has a higher standing on the payee preference list than an agency that has a
custodial relationship. 7

The State foster care agency may not always know whether the child is receiving SSA
benefits. Therefore, States can use SSA’s State Verification Exchange System (SVES)
to determine whether the child is receiving benefits.8 If the child is receiving benefits,
the State foster care agency can apply to SSA to become the child’s representative
payee. However, SSA determines who is best suited to be the child’s representative
payee.

Florida’s foster care system is State-administrated; however, community-based
agencies provide the case management services. A Florida Department of Children
and Families (DCF) official stated the 1996 Florida Legislature mandated that the
Florida DCF—the State’s foster care agency—privatize foster care and related services
through contracts with established community-based care (CBC) agencies. 9 As of
September 2011, DCF had 20 service contracts with 19 community-based lead
agencies.10 Lead agencies, also referred to as providers, are responsible for “. . . the
provision of support and services for eligible children and families.” Agency staff
informed us that DCF did not have access to SVES before March 2011.

In April 2011, we performed a computerized comparison of DCF foster care data with
SSA’s beneficiary records. This comparison identified 3,204 children served by
representative payees in DCF’s foster care program who were receiving SSA payments.
See Table 1 for details.
5
    SSA, POMS, GN 00502.159 A. (effective June 25, 2007).
6
    SSA, POMS, GN 00502.159 A and B.2 (effective June 25, 2007).
7
    SSA, POMS, GN 00502.159 B.1. (effective June 25, 2007).
8
 SSA's SVES provides authorized State government agencies with a standardized method to verify
Social Security numbers and OASDI and SSI benefit information.
9
    Codified at Fla. Stat. ch. 409.1671 (2011).
10
  One lead agency, Community Based Care of Central FL., has two contracts with DCF to provide foster
care-related services.
Page 3 – Michael W. Grochowski



     Table 1: Representative Payees for Children in Florida Foster Care Program

                                                               Receiving
                                  Receiving                    OASDI and
          Representative           OASDI       Receiving SSI     SSI
               Payee              Payments      Payments       Payments     Total Children
    DCF/CBC Agencies                    511            1,061           96            1,668
    Foster Care Parents                 664              498           46            1,208
    Not the Foster Care Agency
                                        198             125            5              328
    or Foster Care Parent
    Total                              1,373          1,684          147            3,204

We identified 328 children served by representative payees who were not the foster
care agency, CBC agency, or foster care parents. We believe these children’s benefits
were at a higher risk of misuse because they did not have a suitable payee, since these
payees may not have had contact with the children. The payees included such
individuals as the children’s mothers, fathers, and relatives or others who received and
managed about $1.9 million in benefit payments, annually.

We randomly selected 50 of the 328 children for review to determine whether suitable
representative payees served them. Of the 50, we did not review 11 of these children
because

•    6 children’s payees were changed to a parent, grandparent, or relative as a result of
     custody changes;
•    3 children became their own payees because they reached age 18;
•    1 child’s payee was changed to a CBC agency; and
•    1 child had a CBC agency apply to serve as payee, but SSA determined the mother
     was a more suitable payee.

For the remaining 39 children, we requested SSA perform suitability assessments to
determine whether they had suitable representative payees. Since these children had
payees who were not the foster care agency, CBC agencies, or the custodial foster care
parent, we were concerned these children may not have suitable payees to manage
their benefit payments. Therefore, we requested SSA review the representative payees
we identified. See Appendix B for our scope and methodology and Appendix C for our
sampling methodology.

RESULTS OF REVIEW
The Agency reported 19 (49 percent) of the 39 children had suitable representative
payees. For the remaining 20 children, SSA determined (a) 12 were being served by
unsuitable payees, 9 of whom misused children’s benefit payments; (b) 1 child’s
Page 4 – Michael W. Grochowski


benefits were suspended pending completion of the Agency’s misuse assessment; and
(c) 7 had suitable payees, but SSA changed the payees in accordance with Agency
policy.

Based on the results of SSA’s assessments, we estimate unsuitable payees served
79 11 children in the Florida State foster care program. Of these, 59 12 children had an
estimated $300,074 13 in benefits misused. 14

Unsuitable Payees and Selection of Payees Higher on the Agency’s
Preference List

For 20 children, as of September 2011, SSA assessments of their representative
payees determined

•     12 children were served by unsuitable payees, 9 of those payees misused about
      $46,000 in children’s benefit payments;
•     1 child’s benefits were suspended pending completion of the Agency’s assessment
      to determine whether the payee misused benefits; and
•     7 children had suitable payees, but others ranked higher on SSA’s payee preference
      list. 15

SSA determined 12 children had unsuitable payees. Of the 12 children, SSA
determined 9 had payees who misused about $46,000 in benefits belonging to the
children they served. For example, DCF removed a child from her mother’s care and
placed the child with a sister in August 2010. The mother did not inform SSA the child
was no longer in her care, and she continued collecting benefits on the child’s behalf.
Our request prompted SSA to review the appropriateness of the payee. SSA tried to
contact the mother several times to determine how the child’s benefits—totaling
$4,884 from August 2010 through June 2011—were used. The Agency reported it was
not able to contact the mother. SSA determined the mother had misused the child’s
benefits and changed the payee to the child’s sister, who was her guardian at that time.
See Table 2 for more details about the nine payees SSA determined misused children’s
Social Security payments.

11
  For the unsuitable payees serving in Florida, we are 90 percent confident the number of unsuitable
payees ranged from 50 to 115. See Appendix C for more information.
12
  For the unsuitable payees serving in Florida, we are 90 percent confident the number of unsuitable
payees who misuse benefits ranged from 34 to 93. See Appendix C for more information.
13
  For the unsuitable payees serving in Florida, we are 90 percent confident the amount of benefit misuse
ranged from $125,694 to $474,454. See Appendix C for more information.
14
     See Appendix C for more information.
15
     See Appendix D for more information.
Page 5 – Michael W. Grochowski


                       Table 2: Representative Payees Misused Benefits

           Child Beneficiaries    Benefit Misuse Period       Misuse Amount
                   1             May 2010 – May 2011                       $11,284
                   2             October 2010 – June 2011                   $8,487
                   3             July 2010 – June 2011                      $6,846
                   4             September 2010 – May 2011                  $6,066
                   5             August 2010 – June 2011                    $4,884
                   6             January 2011 – July 2011                   $4,508
                   7             January 2011 – June 2011                   $1,152
                   8             March 2010 – July 2011                     $1,904
                   9             November 2010 – April 2011                  $612
           Total                                                          $45,743

For the remaining three children, SSA determined the representative payee was
unsuitable; however, it found no misuse. SSA verified that one child was no longer in
the payee’s custody and changed the payee to one of the CBC agencies. SSA did not
pay benefits to the child during the period in question; therefore, no misuse occurred.
Another child left her payee’s care and had no contact with the payee. The payee did
not contact SSA regarding the removal of the child from their care. SSA determined
there was no benefit misuse—the child had full access to her benefits by use of a debit
card. Because of her age, as of September 2011, SSA placed the beneficiary in direct
payment status. Lastly, a child was removed from the payee’s custody, but the payee
did not report the removal to SSA. SSA interviewed the payee and child regarding the
use of the benefit payments. The child stated the payee kept in touch and provided her
with gift cards. SSA determined the payee did not misuse the benefits. However, SSA
determined the payee was unsuitable and suspended the child’s benefits until it found a
suitable payee. As of December 16, 2011, the benefits were still suspended.

Generally, when SSA determined unsuitable representative payees served children, it
selected new payees to manage the Social Security payments. For the nine children
with benefits misused by representative payees, SSA changed the payees for eight.
For the remaining child, SSA terminated benefits; therefore, a new payee was not
needed.

The Agency also reported it was reviewing one child’s payee for the possible misuse of
$5,392. SSA appointed one of the CBC agencies as a new payee to serve the child
while SSA determined whether the payee misused benefits.

Lastly, SSA determined suitable payees served seven beneficiaries, but SSA replaced
the payees with others who ranked higher on its payee preference list. In choosing the
best payee, SSA policy identifies payee selection preferences.16 Of the seven cases,

16
     Id.
Page 6 – Michael W. Grochowski


SSA selected one of the CBC agencies as the new payee for four children. For the
remaining three children, SSA selected the foster parents as the new payees for two
and the child’s father for one. For example, DCF removed one child from his sister’s
custody; however, the sister did not contact SSA regarding the change in the child’s
living arrangements. According to the sister, she kept in contact with the child and
provided for his needs. She also had conserved funds for the child that she returned to
SSA. SSA determined since the child was under DCF custody, one of the CBC
agencies was a more suitable payee. SSA suspended the child’s benefits until the
appropriate CBC agency applied to be the payee. As of December 2011, the child’s
record was still suspended.

We estimate unsuitable payees served 79 children in the Florida State foster care
program. Of these, 59 children had an estimated $300,000 in benefits misused. If SSA
does not identify and replace the payees who misused Social Security payments, we
estimate an additional $330,000 17 may be misused during the next 12 months.

Suitable Representative Payees

Of the 39 children SSA reviewed to determine whether they had suitable payees, it
determined 19 had suitable representative payees managing their benefit payments.
For 17 of these children, SSA reported the representative payees were legal guardians
or had custody of the children. SSA cited these relationships as reasons why the
payees were suitable. For the two remaining children, SSA determined the
representative payees maintained a relationship with the children even though the
children were not in the payee’s care.

We reviewed information and documentation SSA provided to support its assessments
of the payees serving the 19 children. SSA provided Form SSA-5002, Report of
Contact; Form SSA-795, Statement from Claimants or Other Persons; and/or
Representative Payee System notes as support for its suitability assessments. We
found this information to be sufficient and reliable.

For example, information provided by the Agency indicated DCF removed a child from
her mother’s custody in July 2010 and placed the child with an aunt until March 2011.
The mother subsequently regained custody of the child. Between July 2010 and
March 2011, the child was with the mother 3 days a week and the aunt 4 days. The
mother did not report any change of custody to SSA. The mother claims that even
though she did not have custody of the child, she was still providing for the child while
the child was living with her aunt. The aunt confirmed the mother’s statements, and
SSA determined the mother should remain the payee.

On December 5, 2011, we discussed payee suitability assessments with staff from the
Office of the Atlanta Regional Commissioner. During the discussion, staff reported that
in March 2011, the State of Florida and SSA finalized a data exchange agreement to

17
  For children with future benefit misuse in Florida, we are 90 percent confident the future amount of
benefit misuse ranged from $136,602 to $523,859. See Appendix C for more information.
Page 7 – Michael W. Grochowski


use SVES for the State’s foster care program. The data exchange agreement is limited
to verification of children’s Social Security numbers. However, the agreement excludes
verifying whether children are receiving SSA benefits.

CONCLUSION AND RECOMMENDATIONS
Our comparison of data from the DCF with SSA’s records identified 328 children whose
benefit payments were managed by representative payees who were not the foster care
agency, CBC agencies, or the foster care parent. A DCF official stated Florida foster
care does not use SVES to determine whether a child is receiving SSA benefits. As a
result, we believe DCF may not always be aware that a child in its foster care program
is receiving Social Security benefits. SSA’s SVES allows States to determine whether
a child is receiving benefits. With this information, the Florida foster care agency can
determine whether it should apply to be a child’s representative payee.

SSA conducted representative payee suitability assessments for 39 of the 328 children
we identified. The Agency determined nine payees misused about $46,000 of the
children’s benefits, and possible misuse occurred regarding the benefits of one child.
Lastly, seven children had suitable payees, but SSA changed the payees in accordance
with Agency policy.

We estimate 79 children in the Florida State foster care program were served by
unsuitable representative payees. Of these, 59 children had an estimated $300,000 in
benefits misused. If the Agency does not identify and replace the unsuitable payees
who misused Social Security payments, we estimate an additional $330,000 may be
misused during the next 12 months.

We recommend SSA:

1. Modify the existing SVES data exchange agreement to include verifying that a child
   is receiving SSA benefits.
2. Conduct suitability assessments for the representative payees associated with the
   remaining 71 children in pay status as of December 12, 2011 with payees who are
   not DCF, community-based care agencies, or the foster care parents.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology
APPENDIX D – Payee Selection Preferences
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
CBC      Community-Based Care
DCF      Department of Children and Families
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Programs Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SVES     State Verification Exchange System
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

   Reviewed applicable Federal laws and sections of the Social Security
    Administration’s (SSA) regulations, policies, and procedures.

   Identified and reviewed prior relevant audits.

   Interviewed SSA officials and State of Florida Department of Children and Families
    (DCF) officials.

   Obtained from DCF an electronic data extract of children in its foster care system as
    of February 19, 2011.

   Used SSA’s Enumeration Verification System to validate the Social Security
    numbers for the DCF’s February 19, 2011 foster care data we received.

   Performed a computerized comparison, in April 2011, of foster care data provided by
    the State of Florida’s DCF with SSA’s Master Beneficiary and Supplemental Security
    Records. The State data were as of February 2011. Based on this comparison, we
    identified 3,204 records of children in DCF’s foster care programs receiving SSA
    payments managed by representative payees.

   Identified 328 children where the representative payee was someone other than the
    foster care agency, community-based care agency, or child’s foster care parent.

   Selected 50 of the 328 children and requested SSA determine whether the children
    had the appropriate representative payees. See Appendix C for our sampling
    methodology and estimates.

   Requested information from SSA regarding the suitability assessments it completed
    and basis for those determinations.

   Reviewed such documents as Form SSA-5002, Report of Contact; Form SSA-795,
    Statement from Claimants or Other Persons; and notes from the Representative
    Payee System that supported the Agency’s decision on the suitability assessments
    of the representative payees.




                                            B-1
After the start of our review, DCF officials indicated SSA’s North Florida Area Director’s
Office initiated an anti-fraud project intended to ensure benefits of children in DCF
custody had the appropriate representative payee. According to SSA staff, the project
is limited to children in DCF custody located in 51 of the 67 counties in the State of
Florida. To assist the Agency in its efforts, we shared with the North Florida Area
Director’s Office the data DCF provided for our review.

We performed our review at SSA’s Headquarters in Baltimore, Maryland, from May to
December 2011. We tested the data obtained for our review and determined them to
be sufficiently reliable to meet our objective. The entities reviewed were field offices in
the Atlanta Region. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation.




                                            B-2
                                                                                 Appendix C

Sampling Methodology
We obtained from the Florida Department of Children and Families (DCF) a list of
children under its care as of February 9, 2011. In April 2011, we conducted a
computerized comparison of DCF foster care data with SSA’s Master Beneficiary and
Supplemental Security Records. Based on this comparison, we identified
3,204 children with representative payees in DCF’s foster care programs who were
receiving SSA payments. Of these children, we determined 328 had representative
payees who were not the foster care agency, community-based care agency, or foster
care parent. We randomly selected 50 children for the Agency to assess the suitability
of their payees.

Of the 50 children in our sample, 1 SSA determined 12 payees to be unsuitable. The
following tables provide details of our sample results, statistical projections, and
estimates.

               Table C-1: Number of Children with Unsuitable Payees
      Number of Children with Unsuitable Payees                                               12
      Point Estimate                                                                          79
      Projection Lower Limit                                                                  50
      Projection Upper Limit                                                                 115
     Note: All projections are at the 90-percent confidence level.

Of the 12 unsuitable payees, SSA confirmed 9 payees misused benefits totaling
$45,743. Projecting these results to our population of 328 children, we estimate
59 children had $300,074 in benefits misused by their payees.

                 Table C-2: Number of Children with Benefit Misuse
      Number of Cases with Benefit Misuse                                                      9
      Point Estimate                                                                          59
      Projection Lower Limit                                                                  34
      Projection Upper Limit                                                                  93
     Note: All projections are at the 90-percent confidence level.




1
 After our selection of the 50 children, we did not review 11 of these children because new payees were
appointed after our selection. We determined (a) six children’s payees were changed to a parent,
grandparent, or relative as the result of custody changes; (b) three children became their own payees
because they reached age 18; (c) one child’s payee was changed to a CBC agency; and (d) one child
had a CBC agency apply to serve as payee, but SSA determined the mother was a more suitable payee.


                                                   C-1
                        Table C-3: Amount of Benefit Misuse
      Amount of Benefit Misuse                                                          $45,743
      Point Estimate                                                                   $300,074
      Projection Lower Limit                                                           $125,694
      Projection Upper Limit                                                           $474,454
     Note: All projections are at the 90-percent confidence level.

SSA confirmed nine representative payees had misused benefit payments. If the
Agency does not identify and replace these unsuitable payees, additional Social
Security payments may be misused. Projecting these results to our population of
328 children, we estimate these payees may misuse an additional $330,230 of benefits
for the next 12 months.

       Table C-4: Additional Benefits Misused (for a 12-Month Period) if SSA
                did not take any Action to Correct Beneficiaries with Misuse
      Amount of Future Benefit Misuse (12-month period)                $50,340 2
      Point Estimate                                                   $330,230
      Projection Lower Limit                                           $136,602
      Projection Upper Limit                                           $523,859
     Note: All projections are at the 90-percent confidence level.




2
 To calculate the amount of future benefits misused for a 12-month period, we multiplied the last monthly
benefit payment that was misused by 12 months for the nine beneficiaries whose benefits were misused.



                                                   C-2
                                                                             Appendix D

Payee Selection Preferences
The Social Security Administration’s (SSA) policy directs its staff to choose the applicant
best suited to serve as representative payee. 1 In determining the best payee choice,
SSA staff is instructed to “. . . consider all factors, including the applicant’s relationship
to the beneficiary, the applicant’s interest in the beneficiary’s well being and whether or
not the applicant has custody of the beneficiary.” In addition, policy indicates
representative payee preference lists are provided as guides to help in the selection of a
payee. As stated in policy, the lists below are generally shown in the preferred order of
selection for minor children and adults.

Payee Preference Lists for Minor Children

Agency policy states, “When the beneficiary is a minor child, select the best payee
available from this list of preferred applicants:

    1. A natural or adoptive parent with custody;
    2. A legal guardian;
    3. A natural or adoptive parent without custody, but who shows strong concern;
    4. A relative or stepparent with custody;
    5. A close friend with custody and provides for the child’s needs;
    6. A relative or close friend without custody, but who shows strong concern;
    7. An authorized social agency or custodial institution; or
    8. Anyone not listed above who shows strong concern for the child, is qualified, and
       able to act as payee, and who is willing to do so.”

Payee Preference List for Adults

SSA policy states, “When you determine that the beneficiary needs a representative
payee, select the best payee available from this list of preferred applicants:

    1. A spouse, parent or other relative with custody or who shows strong concern;
    2. A legal guardian/conservator with custody or who shows strong concern;
    3. A friend with custody;
    4. A public or nonprofit agency or institution;

1
 SSA, POMS, GN 00502.105 (effective July 24, 2011 – August 2, 2011; updated August 2, 2011 – no
material changes).


                                               D-1
5. A Federal or State institution;
6. A statutory guardian;
7. A voluntary conservator;
8. A private, for-profit institution with custody and is licensed under State law;
9. A friend without custody, but who shows strong concern for the beneficiary’s well-
   being, including persons with power of attorney;
10. Anyone not listed above who is qualified and able to act as payee, and who is
    willing to do so;
11. An organization that charges a fee for its service.”




                                         D-2
                                                                       Appendix E

Agency Comments

March 02, 2012

REPLY-ATLANTA: Signed Draft Report (A-13-11-11173)


To:   Inspector General

From: Regional Commissioner
            Atlanta

Subject: Benefit Payments Managed by Representative Payees of Children in the
             Florida State Foster Care Program (A-13-11-11173)– Atlanta Region’s
             Comments

Thank you for the opportunity to review the draft report. Below you will find our
comments in response to the specific recommendations.

The objective of the audit was to determine whether children in the Florida State foster
care program had appropriate representative payees.

Based on the results of SSA’s assessments; OIG estimated unsuitable payees served
79 children in the Florida State foster care program. Of these, 59 children had an
estimated $300,074 in benefits misused.

Recommendation 1

Modify the existing SVES data exchange agreement to include verifying that a child is
receiving SSA benefits.

SSA Comment

We agree with the intent of the recommendation. We shared this recommendation
with the state of Florida to modify the existing SVES data exchange agreement to
include verification of SSA/SSI benefits. We received the request for modification on
February 14, 2012. To determine if we can exchange the data requested in the
modification, we sent the request to the Office of Privacy and Disclosure for review.




                                           E-1
Recommendation 2

Conduct suitability assessments for the representative payees associated with the
remaining 71 children in pay status as of December 12, 2011 with payees who are not
DCF, community-based care agencies, or the foster care parents.

Corrective Action Plan

We agree. We will conduct representative payee suitability assessments based on the
contradictory information provided by DCF for the remaining 71 children.

If you have any questions, please contact Tiffany Schaefer of the RSI Programs Team.
She can be reached at (404) 562-1322.


                                  Amy Roberts for
                               Michael W. Grochowski




                                         E-2
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Upeksha van der Merwe, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-11-11173.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
